No. 20-915

Ju the Supreme Court of the Anited States

Unicolors, Inc.,
Petitioner(s),

Vv.

H&M Hennes & Mauritz, L.P.,
Respondent.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI
CURIAE INTELLECTUAL PROPERTY LAW PROFESSORS IN SUPPORT OF
PETITIONER contains 7111 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 10, 2021.
—lydrcl Ub.

Tyler T. Ochoa

Counsel of Record

Santa Clara University School of Law
500 El Camino Real

Santa Clara, CA 95053
408-554-2765

ttochoa@scu.edu

Counsel for Amici Curiae

Intellectual Property Law Professors
